 INSPECTOR GENERAL STATEMENT ON THE
FEDERAL COMMUNICATIONS COMMISSION’S
           FISCAL YEAR 2003
    MAJOR MANAGEMENT CHALLENGES

    04-AUD-08-01       December 4, 2003




        Office of Inspector General

                   *******

    Federal Communications Commission
TABLE OF CONTENTS




Inspector General Statement on the Federal Communications Commission’s
Major Management Challenges                                              Section        I


Chairman’s Response to Inspector General Statement on the
Federal Communications Commission’s Major Management Challenges          Section        II




04-AUD-08-01          INSPECTOR GENERAL STATEMENT ON THE                           Page i
                      FEDERAL COMMUNICATIONS COMMISSION’S
                      FY 2003 MAJOR MANAGEMENT CHALLENGES
             SECTION I

 INSPECTOR GENERAL STATEMENT ON THE
FEDERAL COMMUNICATIONS COMMISSION’S
    MAJOR MANAGEMENT CHALLENGES
                                       OFFICE OF INSPECTOR GENERAL
                                                                      MEMORANDUM




DATE:            December 4, 2003

TO:              Chairman
                 Managing Director

FROM:            Inspector General

SUBJECT:         Inspector General Statement on the Federal Communications
                 Commission’s Major Management Challenges


In November 2000, the President signed the Reports Consolidation Act of 2000 (Public
Law No. 106-531), which requires Inspectors General to provide a summary and
assessment of the most serious management and performance challenges facing Federal
agencies and the agencies’ progress in addressing them. To date, the Federal
Communications Commission (FCC) Inspector General was not subject to this
requirement since the Commission was not a covered agency per the Chief Financial
Officers Act of 1990. With the enactment of the Accountability of Tax Dollars Act of
2002, the FCC is now subject to these provisions. This document responds to the
requirements and provides the initial response to be included in the Consolidated Audit of
the Federal Communications Commission Fiscal Year 2003 Financial Statements.

We identified the following seven significant management issues facing FCC for fiscal
year 2003.

             •      Universal Service Fund Fraud
             •      Financial Reporting
             •      Loan Subsidiary Ledgers
             •      Information Technology and Information Systems Security
             •      Revenue Gap
             •      Reporting Components
             •      Physical Security and Protection of Personnel
                      FEDERAL COMMUNICATIONS COMMISSION’S
                      MAJOR MANAGEMENT CHALLENGES



Universal Service Fund (USF) Fraud

Fraud is an inherent risk in the USF core business process: collection, certification, and
disbursement of funds for advanced telecommunications services. As of fiscal year end
2003, 43 investigations have been initiated. Of those investigations, 35 are on-going and
eight have been closed. Investigations have led to indictments as well as subsequent
sentencing relating to fraudulent actions. To date, over $3.3 million in recoveries have
been processed by the fund administrator with additional recoveries greater than $1.9
million sought.

FCC has taken action to address fraud in the USF business process however additional
efforts are needed. FCC and the USF Administrator, in conjunction with the Office of
Inspector General and the Department of Justice, have developed processes for suspected
fraudulent activity monitoring, investigation, and referral. However, controls over
management oversight and accountability for receipts of USF funds have been materially
weak because of inadequate management controls, lack of a sufficient independent audit
program to deter future fraudulent activity, and weaknesses in the structure of the
program.


Financial Reporting

FCC does not maintain current and accurate financial data during the course of the year.
As a result, FCC undertakes a massive effort to compile, analyze, and correct its financial
data to prepare accurate financial statements quarterly and at fiscal year end. FCC can
enhance both its processes and timing of financial reporting practices, improve its
policies and procedures to ensure consistent accounting practices, and continue its
endeavor for an updated, integrated financial management system entity-wide.

FCC has made progress in correcting financial management weaknesses. Recent
improvements in its loan receivable and cost accounting processes resulted in FCC
obtaining unqualified opinions. Despite these achievements, FCC needs to take
additional steps to ensure proper financial management reporting. Specifically, it has not
made the major changes needed to address a long-standing weakness in financial
reporting. Significant elements of this weakness include the lack of:

               •   integrated financial management system(s) within FCC as well as its
                   reporting components
               •   timely recording and analysis of financial activities for certain
                   accounts




04-AUD-08-01          INSPECTOR GENERAL STATEMENT ON THE                             Page 1
                      FEDERAL COMMUNICATIONS COMMISSION’S
                      FY 2003 MAJOR MANAGEMENT CHALLENGES
                      FEDERAL COMMUNICATIONS COMMISSION’S
                      MAJOR MANAGEMENT CHALLENGES



               •   a cost accounting system that accounts for unit costs per generally
                   accepted accounting principles,
               •   complete budgetary accounting for consolidated reporting
                   components, and,
               •   a complete and thorough process for compiling the entity consolidated
                   statements with minimum errors.


Loan Subsidiary Ledgers

Testing of loan ledger balances repeatedly identifies errors. FCC’s loan subsidiary ledger
is comprised of loan models which are elaborate and complex spreadsheets documenting
loan information and balances. In addition to the inherent limitations of the spreadsheet
models, the applications utilized in the spreadsheet software are implemented to their
maximum potential use which create more problems. Furthermore, FCC’s loan review
process is manually intensive, therefore the risk of error is higher as a result of these
conditions.

FCC is addressing its loan subsidiary ledger issue with the creation of the loan module in
the Revenue Accounting and Management Information System and the outsourcing of its
loan portfolio to a loan service provider. In October 2003, the loan service provider
assumed service responsibility for FCC’s loan portfolio. For fiscal year 2004 financial
reporting, FCC expects to discontinue use of the loan model spreadsheets as its system of
record. Additional future challenges now exist in the management and oversight of the
loan servicing contract.


Information Technology and Information Systems Security

As technology advances and our reliance on technology increases, the need for a strong
information technology infrastructure becomes even more important. FCC’s operations
have become increasingly more reliant on automated systems and further integration of
FCC data and services with external users via the internet is escalating. Along with
explosive growth in computer connectivity comes the ability to disrupt or sabotage
critical operations, read or copy sensitive data, and tamper with critical processes.

FCC’s information technology control environment and systems security need to be
enhanced. FCC is noncompliant with a number of Federal statutes and policies.
Commission systems have been susceptible to malicious attacks via viruses and worms,
and unauthorized access. Inadequacies and inconsistencies exist in the mainframe and
network access request process and efforts to develop and test FCC’s contingency plans




04-AUD-08-01          INSPECTOR GENERAL STATEMENT ON THE                             Page 2
                      FEDERAL COMMUNICATIONS COMMISSION’S
                      FY 2003 MAJOR MANAGEMENT CHALLENGES
                       FEDERAL COMMUNICATIONS COMMISSION’S
                       MAJOR MANAGEMENT CHALLENGES



have been slow. Additionally, FCC lacks a viable capital asset plan, needs to further
enhance its audit trail facility utilization and review, and strengthen its password access
controls.

FCC has taken steps to address its information technology and information systems
security vulnerabilities. FCC developed its agency-wide security plan and is working
toward compliance with required Federal policies and statutes; however, completion
dates for key items to address this challenge have repeatedly been revised.


Revenue Gap

Although FCC collects approximately $250 million in regulatory fees each year, FCC can
not determine if all required fees are collected. The difference between what is collected,
an amount subject to Congressional determination, and what should have been collected
if all regulated parties paid their fees, is deemed a revenue gap.

Recent systems development and the mandatory use of the FCC Registration Number
provide the Commission with a record of each collection which facilitates bill generation
to non-payees. However, FCC does not have a complete universe of potential regulatory
fee payees, it can not determine the total regulatory fee subject to collection, and it does
not have a complete universe to facilitate regulatory fee rate assessment for future years.


Reporting Components

Throughout its history, FCC created subsidiary organizations and administrative
components, subject to various levels of FCC oversight, to conduct Commission business
and meet the agency mission. Fundamentally, these organizations were created without a
complete assessment or determination of how component functions or responsibilities
would comply with Federal laws and regulations, policy, or concepts. This issue exists to
date and creates considerable confusion.

Until recently, FCC addressed questions arising from this issue on an individual basis
resulting in a legal interpretation. At the close of fiscal year 2003, FCC adopted the first
of what is expected to be a series of Commission Orders defining the applicability of
certain laws and regulations to these organizations and components.




04-AUD-08-01           INSPECTOR GENERAL STATEMENT ON THE                              Page 3
                       FEDERAL COMMUNICATIONS COMMISSION’S
                       FY 2003 MAJOR MANAGEMENT CHALLENGES
                      FEDERAL COMMUNICATIONS COMMISSION’S
                      MAJOR MANAGEMENT CHALLENGES



Physical Security and Protection of Personnel

This challenge is not unique to FCC. Since September 11, 2001, physical security and
protection of personnel have been critical issues in the Federal government and the
United States in general.

The FCC has taken steps to identify and implement security measures to protect FCC
personnel and its physical infrastructure. Specifically, FCC created a program to inform
personnel regarding potential threats and threat management, prepared measures to
address potential catastrophic events, and made security enhancements to FCC facilities.

Despite these efforts, the Commission has related personnel and physical infrastructure
issues to complete. For example, the FCC has not completed a Commission-wide
continuity of operations plan. Security and protection enhancements to some facilities
have not been completed. And, recommendations regarding work place violence need to
be addressed by an appointed task force.




04-AUD-08-01          INSPECTOR GENERAL STATEMENT ON THE                           Page 4
                      FEDERAL COMMUNICATIONS COMMISSION’S
                      FY 2003 MAJOR MANAGEMENT CHALLENGES
             SECTION II

       CHAIRMAN’S RESPONSE TO
 INSPECTOR GENERAL STATEMENT ON THE
FEDERAL COMMUNICATIONS COMMISSION’S
    MAJOR MANAGEMENT CHALLENGES
